No. 20-334

 

 

IN THE

Supreme Court of the United States

CiTy OF SAN ANTONIO, TEXAS, ON BEHALF OF ITSELF AND ALL
OTHER SIMILARLY SITUATED TEXAS
MUNICIPALITIES, PETITIONER
ve

HOTELS.cOM, L.P., ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,000 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 16, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
